<html>
<title> - PENDING COIN AND MEDAL LEGISLATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]






                   PENDING COIN AND MEDAL LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       DOMESTIC AND INTERNATIONAL
                 MONETARY POLICY, TRADE AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2004

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 108-71



93-840              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
DOUG BEREUTER, Nebraska              PAUL E. KANJORSKI, Pennsylvania
RICHARD H. BAKER, Louisiana          MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
PETER T. KING, New York              NYDIA M. VELAZQUEZ, New York
EDWARD R. ROYCE, California          MELVIN L. WATT, North Carolina
FRANK D. LUCAS, Oklahoma             GARY L. ACKERMAN, New York
ROBERT W. NEY, Ohio                  DARLENE HOOLEY, Oregon
SUE W. KELLY, New York, Vice Chair   JULIA CARSON, Indiana
RON PAUL, Texas                      BRAD SHERMAN, California
PAUL E. GILLMOR, Ohio                GREGORY W. MEEKS, New York
JIM RYUN, Kansas                     BARBARA LEE, California
STEVEN C. LaTOURETTE, Ohio           JAY INSLEE, Washington
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, Jr., North          MICHAEL E. CAPUANO, Massachusetts
    Carolina                         HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                 RUBEN HINOJOSA, Texas
JUDY BIGGERT, Illinois               KEN LUCAS, Kentucky
MARK GREEN, Wisconsin                JOSEPH CROWLEY, New York
PATRICK J. TOOMEY, Pennsylvania      WM. LACY CLAY, Missouri
CHRISTOPHER SHAYS, Connecticut       STEVE ISRAEL, New York
JOHN B. SHADEGG, Arizona             MIKE ROSS, Arkansas
VITO FOSSELLA, New York              CAROLYN McCARTHY, New York
GARY G. MILLER, California           JOE BACA, California
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
SHELLEY MOORE CAPITO, West Virginia  STEPHEN F. LYNCH, Massachusetts
PATRICK J. TIBERI, Ohio              ARTUR DAVIS, Alabama
MARK R. KENNEDY, Minnesota           RAHM EMANUEL, Illinois
TOM FEENEY, Florida                  BRAD MILLER, North Carolina
JEB HENSARLING, Texas                DAVID SCOTT, Georgia
SCOTT GARRETT, New Jersey            CHRIS BELL, Texas
TIM MURPHY, Pennsylvania              
GINNY BROWN-WAITE, Florida           BERNARD SANDERS, Vermont
J. GRESHAM BARRETT, South Carolina
KATHERINE HARRIS, Florida
RICK RENZI, Arizona

                 Robert U. Foster, III, Staff Director
 Subcommittee on Domestic and International Monetary Policy, Trade and 
                               Technology

                   PETER T. KING, New York, Chairman

                                     CAROLYN B. MALONEY, New York
JUDY BIGGERT, Illinois, Vice         BERNARD SANDERS, Vermont
    Chairman                         MELVIN L. WATT, North Carolina
JAMES A. LEACH, Iowa                 MAXINE WATERS, California
MICHAEL N. CASTLE, Delaware          BARBARA LEE, California
RON PAUL, Texas                      PAUL E. KANJORSKI, Pennsylvania
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
DOUG OSE, California                 DARLENE HOOLEY, Oregon
JOHN B. SHADEGG, Arizona             LUIS V. GUTIERREZ, Illinois
MARK R. KENNEDY, Minnesota           NYDIA M. VELAZQUEZ, New York
TOM FEENEY, Florida                  RAHM EMANUEL, Illinois
JEB HENSARLING, Texas                CHRIS BELL, Texas
TIM MURPHY, Pennsylvania
J. GRESHAM BARRETT, South Carolina
KATHERINE HARRIS, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    March 10, 2004...............................................     1
Appendix:
    March 10, 2004...............................................    13

                               WITNESSES
                       Wednesday, March 10, 2004

Armitage, Hon. Richard L., Deputy Secretary, United States 
  Department of State............................................     6
Griles, Hon. J. Steven, Deputy Secretary, United States 
  Department of the Interior.....................................     9
Mundy, Carl E. Jr., General, USMC Retired, 30th Commandant of the 
  Marine Corps...................................................    10
Rehnquist, Hon. William H., Chief Justice, United States Supreme 
  Court..........................................................     3

                                APPENDIX

Prepared statements:
    King, Hon. Peter T...........................................    14
    Gutierrez, Hon. Luis V.......................................    16
    Armitage, Hon. Richard L.....................................    17
    Griles, Hon. J. Steven.......................................    19
    Mundy, Carl E. Jr............................................    23
    Rehnquist, Hon. William H....................................    29

 
                   PENDING COIN AND MEDAL LEGISLATION

                              ----------                              


                       Wednesday, March 10, 2004

             U.S. House of Representatives,
        Subcommittee on Domestic and International,
              Monetary Policy, Trade and Technology
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2128, Rayburn House Office Building, Hon. Peter King 
[chairman of the subcommittee] presiding.
    Present: Representatives King, Biggert, Ose, Feeney, Oxley 
(ex officio), Murphy, Maloney, Sherman and Gutierrez. Also 
present were Representatives Bachus, Davis and Gibbons.
    Chairman King. [Presiding.] The subcommittee will come to 
order. One of the reasons we are starting on time is, first of 
all, we are privileged to have a very select panel this 
morning. Also, my understanding is that there are going to be a 
series of votes starting on the House floor at 10:15 a.m. I 
have spoken to Mrs. Maloney. We will try to expedite this, 
especially in view of the witnesses we have here.
    This meeting of the Subcommittee on Domestic and 
International Monetary Policy, Trade and Technology is meeting 
today to hear testimony on and consider several pieces of 
legislation authorizing commemorative coins and Congressional 
Gold Medals. Before we begin, I just want to make several quick 
statements. One, pursuant to my prior announcements, the only 
speakers this morning will be myself and the Ranking Member, 
Mrs. Maloney. All other members's statements will be placed in 
the record.
    I also note that the subcommittee is joined today by 
members both on and off the full committee who are sponsoring 
the legislation before us today. Without objection, each of 
these members will be briefly recognized for the purpose of 
introducing the witnesses testifying on behalf of their bill. 
Without objection, so ordered.
    Finally, I note that we have a number of very important 
witnesses before the committee. I am aware that they have other 
matters they have to attend to. I will ask the other members to 
be respectful of these obligations and limit any questions they 
might have to the bills before us today.
    With that, I will recognize myself for a brief opening 
statement. I will actually waive my opening statement and go to 
Mrs. Maloney so we can get the witnesses started. No sense 
tying them down on this.
    Mrs. Maloney. I really want to put in context what we are 
doing. I want to thank the Chairman for holding the markup and 
all our distinguished witnesses today, Chief Justice Rehnquist, 
Deputy Secretary of State Armitage, Deputy Secretary of 
Interior Griles, and General Mundy, as well as Representatives 
Gibbons, Jo Ann Davis, and my colleague Jack Murtha.
    This morning, the subcommittee takes up the awarding of the 
Congressional Gold Medal and three commemorative coin programs. 
The Congressional Gold Medal is the most distinguished award 
bestowed by Congress. First awarded to George Washington, 
recipients of the medal include Winston Churchill, Robert 
Frost, Joe Louis, Mother Teresa, and the American Red Cross, 
and most recently in a bill offered by myself and Ginny Brown-
Waite, we voted to pass one to give to Tony Blair.
    This morning, the subcommittee meets to approve H.R. 2131, 
which will award the medal to President Jose Maria Anzar of 
Spain. President Anzar was sworn in as Spain's leader on March 
3, 1996. Under his leadership, it is only the second time in 60 
years that power has passed from one elected party to another 
peacefully in Spain. He has pursued very close relations with 
the U.S. throughout his time in office. He has been an ally in 
our war on terror and an important trading partner.
    This morning we will also consider three coin programs, 
including the John Marshall Commemorative Coin Act introduced 
by Financial Institutions Chair Spencer Bachus, and it is hard 
to think of a more distinguished recipient of this honor than 
John Marshall, a native of Virginia who served in the 
Revolutionary War and as Secretary of State. Marshall is also a 
former colleague of ours, having served in the House of 
Representatives.
    Chief Justice Marshall's impact on the Supreme Court is 
unmatched. Over the course of his 34 years on the Court, he 
guided it to true equality with the other branches of 
government, most importantly establishing the doctrine of 
judicial review in Marbury v. Madison decided in 1803. The 
program will benefit the Supreme Court Historical Society.
    H.R. 1914, the Jamestown 400th Anniversary Commemorative 
Coin Act was introduced by my colleague Jo Ann Davis, and 
surcharges from the sale of this coin will go to the 
Association for the Preservation of Virginia Antiquities, the 
Jamestown-Yorktown Foundation of the Commonwealth of Virginia, 
and the National Park Service.
    Finally, my dear colleague and friend John Murtha has 
introduced H.R. 3277, the Marine Corps's 230th Anniversary 
Commemorative Coin Act. With the Marines deployed in harm's way 
across the world today, from Iraq to Haiti, it is highly 
appropriate that we pass this legislation. There could not 
possibly be a better advocate to bring this bill to the 
subcommittee than Representative Murtha.
    For those of you who do not know, Representative Murtha is 
a former Marine and was the first Vietnam combat veteran 
elected to Congress. In fact, Representative Murtha was an 
active Marine reservist until 1990. We all know that he knows a 
great deal about putting together successful congressional 
projects. Here, once again, he is backing an exceedingly worthy 
endeavor, as surcharges from the coin will benefit the 
construction of the Marine Corps's Heritage Center for 
historical depictions and educational programs related to the 
Corps.
    I thank the Chairman and especially the witnesses for being 
here, and I yield back the balance of my time.
    Chairman King. I thank the Ranking Member.
    As mentioned, we have a number of distinguished witnesses 
here today. Probably, I can honestly say to this committee, the 
subcommittee has never had a more distinguished witness than 
the Chief Justice of the United States Supreme Court who is 
here today.
    I would yield to Chairman Spencer Bachus, Chairman of the 
Subcommittee on Financial Institutions for the purpose of 
introducing the chief justice. Mr. Bachus?
    Mr. Bachus. I thank the Chairman.
    It is my extreme honor not only to introduce Chief Justice 
Rehnquist, but also my former Auburn University graduate and 
fraternity brother Carl Mundy. My oldest son is a Marine and 
would be thrilled that you are on the panel before our 
committee.
    It is very appropriate that a great Chief Justice, William 
Rehnquist, is here to talk about another former great Chief 
Justice, John Marshall. John Marshall was our longest-serving 
chief judge. He not only served as a chief judge, he was a 
Revolutionary War hero, went through Valley Forge with George 
Washington. He was Secretary of State when John Adams appointed 
him to the Supreme Court.
    Without further ado, I will simply welcome Chief Justice 
Rehnquist to our panel and allow him to make remarks as he sees 
fit.

 STATEMENT OF HON. WILLIAM H. REHNQUIST, CHIEF JUSTICE, UNITED 
                      STATES SUPREME COURT

    Justice Rehnquist. Thank you very much, Congressman Bachus.
    Chairman King, Representative Maloney, I appreciate the 
opportunity to be here today to speak in support of H.R. 2768. 
Last spring, the Citizens Commemorative Coin Advisory Committee 
recommended that a coin commemorating the 250th anniversary of 
the birth of Chief Justice John Marshall be minted in 2005. 
Neither Marshall nor the Court has been previously honored with 
a commemorative coin.
    While people all over the country are familiar with the 
likes of George Washington, Thomas Jefferson, and Benjamin 
Franklin, fewer know about the remarkable contributions of the 
fourth Chief Justice. A commemorative coin would provide an 
opportunity to educate all Americans about the man known as 
``the Great Chief Justice.'' The Supreme Court Historical 
Society, which has been instrumental in forwarding this idea, 
devotes itself to educating the public about the workings of 
the Supreme Court and the history of the Supreme Court.
    John Marshall served as Chief Justice for 34 years, from 
1801 until 1835. He was born in the Blue Ridge foothills of 
Virginia, about 50 miles west of present-day Washington. He had 
very little formal education, but by the time he reached 25 
years of age, he had served as a captain commanding a line 
company of artillery in the Battles of Brandywine and Monmouth 
during the Revolutionary War. He had also suffered through the 
terrible winter at Valley Forge with George Washington and the 
rest of the Continental troops.
    It was this experience which led him to remark that he 
looked upon the ``United States as his country, and Congress as 
his government,'' not an unusual sentiment today, to be sure, 
but quite an unusual sentiment for a Virginian at that time.
    After mustering out of the service, he studied law very 
briefly and was admitted to the Virginia bar. He was elected a 
Member of Congress from Virginia and at the time of his 
appointment as Chief Justice, he was serving as President John 
Adams's Secretary of State. He was much better known then as a 
politician than as a legal scholar. Today, due in large part to 
John Marshall, the federal judiciary, headed by the Supreme 
Court, is regarded as a co-equal branch of the federal 
government, along with the legislative and the executive 
branches. But in the first decade of the new republic, from 
1790 to 1800, the judiciary was very much a junior partner.
    To illustrate the low estate of the Supreme Court at this 
time, the federal government was in the process of moving from 
Philadelphia, which had been the capital for 10 years, to the 
new capital of Washington in the District of Columbia. The 
White House, then called the President's House, was finished, 
and John Adams was the first President to occupy it. The 
Capitol Building had been constructed on Capitol Hill and was 
ready for Congress, though it was not nearly the building we 
know today as the Capitol. No provision whatever had been made 
for housing the Supreme Court. Finally at the last minute, a 
room in the basement of the Capitol was set aside for the third 
branch. In that rather undistinguished environment, the Court 
would sit for 8 years.
    Marshall's principal claim to fame as Chief Justice, though 
by no means his only one, is his authoring the Court's opinion 
in the famous case of Marbury v. Madison, decided in 1803, 2 
years after he became Chief Justice. He turned what otherwise 
would have been an obscure case into the fountainhead of all of 
our present-day constitutional law.
    The case arose out of a suit by William Marbury, who had 
been nominated and confirmed as a justice of the peace in the 
District of Columbia, against James Madison, whom Thomas 
Jefferson had appointed as his Secretary of State. Although 
Marbury had been nominated and confirmed, his commission had 
not been issued by the time of the change in administration, 
and James Madison refused to issue it.
    Marbury contended that once he had been nominated by the 
President and confirmed by the Senate, the issuance of his 
commission was simply a ministerial task for the Secretary of 
State who had no choice but to issue it. He brought an original 
action in the Supreme Court, relying on a provision of the 
Judiciary Act of 1789 which said the Supreme Court could issue 
writs of mandamus to any federal official where appropriate. He 
said James Madison was a public official, which no one denied, 
and that a writ of mandamus, a recognized judicial writ 
available to require public officials to perform their duty, 
was appropriate in his case.
    Marshall's opinion in Marbury v. Madison is a remarkable 
example of judicial statesmanship. The Court says, yes, Marbury 
is entitled to the commission; Madison is wrong to withhold it. 
It says this is the sort of ministerial duty of a public 
official such as Madison which can be enforced by writ of 
mandamus. But the Court concludes by saying that Congress, in 
granting the Supreme Court the power to issue a writ of 
mandamus in a case like this, has run afoul of the original 
jurisdiction provision of the Supreme Court contained in 
Article Three of the Constitution.
    So Madison and Jefferson are verbally chastised, but it 
turns out there is nothing the Supreme Court can do about it 
because Congress tried to give the Supreme Court more authority 
than the Constitution would permit. The doctrine of judicial 
review, the authority of federal courts to declare legislative 
acts unconstitutional, is established, but in such a self-
denying way that it is the Court's authority which is cut back.
    During the 34 years he served as Chief Justice, Marshall 
wrote over 500 opinions, most of the important cases that the 
Court decided. In Gibbons v. Ogden, decided in 1824, he wrote 
the opinion adopting a broad construction of the power of 
Congress under its authority to regulate interstate commerce 
contained in Article One. One could name several other 
important cases that he wrote, but suffice it to say that by 
the time he died at the age of 81 in 1835, the Supreme Court 
was a full partner in the federal government.
    Oliver Wendell Holmes, himself a distinguished Associate 
Justice of our court, said, ``If American law were to be 
represented by a single figure, skeptic and worshiper alike 
would agree without dispute that the figure could be one alone, 
and that one John Marshall.'' A commemorative coin in his honor 
would be a fitting way to mark the 250th anniversary of his 
birth.
    Thank you.
    [The prepared statement of Hon. William H. Rehnquist can be 
found on page 29 in the appendix.]
    Chairman King. Thank you, Mr. Chief Justice.
    Obviously, we know you have other engagements and you are 
excused. We thank you very much for your testimony and for the 
privilege of your being here today. Thank you, sir.
    Justice Rehnquist. Thank you, Mr. Chairman.
    Chairman King. Our next witness this morning will be the 
Honorable Richard Armitage, Deputy Secretary of State. I will 
just say before introducing Mr. Gibbons for the purpose of 
introducing Mr. Armitage, that my wife went to high school with 
Secretary Armitage and she still wonders where she went wrong 
coming to New York and marrying me.
    [Laughter.]
    At least that is the way she puts it to me. Sir, I don't 
know, apparently you were quite the high school star, but in 
any event, as you are still obviously doing a tremendous job 
for our country today and all of us are indebted to you for 
that.
    With that, I yield to the gentleman from Nevada, Mr. 
Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman.
    It is indeed an honor for me to be here this morning to 
introduce Deputy Secretary of State Richard Armitage. I want to 
also thank this committee for their hard work on these bills. 
In an introduction of Secretary Armitage, let me indicate that 
here is a gentleman who has a great international reputation, 
great international respect, the respect and admiration from 
many of us in Congress, in the diplomatic corps as well, for 
his abilities. He has been deeply involved in Middle East 
diplomacy. He has been involved and instrumental in 
international policymaking worldwide. He is a Vietnam War 
veteran. He has been involved in operations during the Gulf 
War.
    He has taken time from his very busy schedule today to 
testify on behalf of H.R. 2131, the legislation which I have 
introduced to award the Congressional Gold Medal to Jose Maria 
Aznar, President of the Government of Spain. Ladies and 
gentlemen, H.R. 2131 is very important commemorative 
legislation that recognizes a man who has been one of America's 
greatest continental allies, both in times of war and peace. It 
is a testament to President Aznar and his diligent efforts to 
support the international community in the war on terrorism 
that this bill has received broad bipartisan support of over 
300 cosponsors here in Congress.
    He has worked tirelessly along side President Bush and 
Prime Minister Blair and our other allies to eliminate 
terrorism worldwide. Like Prime Minister Blair, who was awarded 
the Congressional Gold Medal last year, President Aznar shares 
our dedication to freedom, democracy and prosperity around the 
world.
    It is for these reasons and countless other acts of courage 
that my colleagues and I wish to honor President Aznar of Spain 
with the Congressional Gold Medal. It is with the same degree 
of honor that we welcome the testimony here today of Deputy 
Secretary of State Richard Armitage, himself a remarkable world 
leader in the international diplomacy arena and who is here to 
speak on behalf of H.R. 2131.
    Thank you, Mr. Chairman, and thank you Secretary Armitage.

STATEMENT OF RICHARD ARMITAGE, DEPUTY SECRETARY, UNITED STATES 
                      DEPARTMENT OF STATE

    Mr. Armitage. Thank you, Mr. Gibbons.
    Chairman Oxley, Chairman King, Ms. Maloney, Members, it is 
an honor to appear before the subcommittee today. I know 
witnesses often say that when they begin testimony with varying 
degrees of sincerity, but today I can truly say that it is an 
honor. In fact, the Secretary of State would be here but for 
the fact he is two floors up in an appropriations hearing at 
the moment. He would much rather be here, I am sure.
    [Laughter.]
    Mr. Chairman, Washington is a city of many monuments, 
including some monuments we walk past every day without really 
seeing. So it may come as a surprise, and certainly a surprise 
to employees of the Department of State, that a bronze Spaniard 
stands watch over the main State building. The inscription on 
the base of the memorial just outside our door reads, ``May 
this statute of Bernardo de Galvez serve as a reminder that 
Spain offered the blood of her soldiers for the cause of 
American independence.''
    Americans today need no reminder the Spain once again has 
offered the blood of her soldiers for the cause. Today, 
however, the cause is not just independence for America, but 
also for Spain, for Afghanistan, for Iraq, and I would say, 
indeed, today the cause is freedom itself for people all over 
the world.
    The modern Spanish hero who has joined this cause with so 
much courage, the heir to the spirit of de Galvez, is Jose 
Maria Aznar, President of the Government of Spain. He is indeed 
deserving of the highest recognition our country can give him 
and I strongly support awarding the Congressional Gold Medal to 
President Aznar.
    September 11 that was simply a tragic day in the life of 
our nation. It was not, however, only our tragedy. On that day, 
citizens of some 90 other nations died in the World Trade 
Center alone. In the years since, terrorism has claimed 
hundreds of lives in countries stretching from Morocco to 
Australia. When President Aznar spoke before a joint meeting of 
this Congress last month, he called terrorism a ``calculated 
challenge to the values that are core to humanity, freedom, 
moral decency, compassion and respect for the lives of 
others.''
    Indeed, Spain has dealt with that challenge for far too 
long. Over the past 35 years, the terrorism organization known 
as the ETA has killed more than 850 Spaniards. Of course, as we 
know, President Aznar himself narrowly escaped becoming a 
victim in 1995.
    I suspect that his personal experience only deepened his 
commitment to doing everything he could do to protect the 
security of all of Spain's people. When President Bush first 
visited Spain in June 2001, he made it clear that he shared 
President Aznar's commitment and that Spain could count on the 
full support of the United States. President Aznar in turn 
offered quick and concrete support for our wounded country in 
the immediate aftermath of the attacks on September 11. He has 
since proven to be a sure and a steadfast ally in the global 
struggle to defeat terrorism. He has expanded our intelligence 
cooperation concerning al Qaeda and provided access to and 
information about terrorist suspects. He has worked with the 
United States and other nations to keep weapons of mass 
destruction out of the hands of terrorists. Within the European 
Union, he has supported the designation of terrorist 
organizations and the efforts to freeze their assets. President 
Aznar has also committed blood and treasure to both Afghanistan 
and to Iraq, where Spanish forces continue to serve alongside 
our own.
    Perhaps President Aznar's greatest legacy as a world 
leader, however, is not just what he has stood against, but 
also what he stands for, the cause of freedom. Throughout his 
tenure in office, President Aznar has advanced a constructive 
and democratic vision for the future, one based on prosperity 
and partnership. The President's agenda has made Spain an 
important political and economic force in the world and an 
important partner for the United States.
    Indeed, President Aznar has helped expand and deepen the 
bilateral relationship between our two nations, as well as the 
broader trans-Atlantic relationship. Moreover, under his 
stewardship, Spain has promoted free minds and free markets 
around the world, particularly here in our own hemisphere. 
Soon, President Aznar will step aside and allow others to build 
on his tremendous legacy. Even his final decision underscores 
for the world the true power of democratic governance.
    Mr. Chairman, the Congressional Gold Medal is a fitting 
honor for a great friend to the cause of freedom, for America, 
for Spain and for people all over the world.
    Thank you, Mr. Chairman and members for giving me the 
opportunity today to offer my support and the support of the 
Secretary of State for this.
    [The prepared statement of Hon. Richard L. Armitage can be 
found on page 17 in the appendix.]
    Chairman King. Thank you, Secretary Armitage, for your 
testimony. I am used to hearing your testimony at the 
International Relations Committee. It was a privilege to have 
you here before our subcommittee today. Again, I want to thank 
you for the tremendous service you do day in and day out for 
our country.
    With that, we excuse the witness and the subcommittee will 
stand in recess probably until approximately 11:00 a.m. We have 
three votes on the House floor. We will get back here as soon 
as possible. If the other panelists can stay, we would greatly 
appreciate it.
    The subcommittee stands in recess. Thank you.
    Mr. Armitage. Thank you, Mr. Chairman.
    [Recess.]
    Chairman King. The subcommittee will resume. I thank the 
witnesses for their patience and forbearance in putting up with 
the foibles of the House of Representatives's calendar and 
voting schedule.
    With that, I yield time to the gentlelady from Virginia, 
Ms. Davis.
    Ms. Jo Ann Davis of Virginia. Thank you, Mr. Chairman.
    First, I want to thank you for holding this important 
hearing this morning, and to thank you for considering H.R. 
1914, a bill that I sponsored for the Jamestown 400th 
Anniversary Commemorative Coin Act. This bill is very important 
to the Jamestown 400th anniversary, which is coming up in 2007. 
Already planning is underway for a year-long celebration to 
honor America's first permanent English settlement.
    The proceeds from the sale of these commemorative coins 
will go a long way towards restoring the Jamestown settlement 
and preserving and promoting educational programs. I am pleased 
today to introduce Deputy Secretary Steve Griles of the 
Department of the Interior. Thank you, Deputy Secretary, for 
being here this morning to testify before the subcommittee.
    Mr. Griles is a true Virginian. He attended the University 
of Richmond and Virginia Commonwealth University, and has lived 
in Virginia almost his whole life. After college, Mr. Griles 
joined the Virginia Department of Conservation and Economic 
Development, where he rose to executive assistant director and 
was responsible for the oversight of 14 state programs, 
including parks, forests and mining. During his service, he 
added several parks throughout the Commonwealth of Virginia. He 
joined the Department of Interior from 1983 to 1989 as 
Assistant Secretary and Deputy Assistant Secretary of the 
Interior for Lands and Minerals Management, where he directed 
national programs for management of public lands, mineral 
resources and surface mining.
    Putting his expertise in natural resources issues to good 
use, he became senior vice president for public environmental 
and marketing activities for the United Company. Most recently, 
he was a principal with National Environmental Strategies. 
Currently, he is back at the Department of Interior, this time 
serving as Deputy Secretary, and we are grateful for his 
service and for the time he is giving us this morning.
    Most importantly, Mr. Griles has a personal interest in our 
hearing today. Because of his strong Virginia roots, he was 
appointed by Secretary Norton as a member of the Jamestown 
400th Commemoration Commission. I am grateful for your 
enthusiasm about this issue, Mr. Griles, and I look forward to 
hearing your testimony today.
    I want to thank you again, Mr. Chairman, for your 
consideration of H.R. 1914, the Jamestown 400th Anniversary 
Commemorative Coin Act.
    Chairman King. Secretary Griles?

STATEMENT OF J. STEVEN GRILES, DEPUTY SECRETARY, UNITED STATES 
                   DEPARTMENT OF THE INTERIOR

    Mr. Griles. Thank you, Mr. Chairman, Ms. Maloney and 
Congresswoman Davis. It is always nice to be with fellow 
Virginians, and also today to appear before your committee to 
present the Department of Interior's views on H.R. 1914, the 
issuance of a coin to commemorate the 400th anniversary of the 
Jamestown settlement. The Department of Interior strongly 
supports the enactment of this bill.
    Mr. Chairman, in 2007 the people of the United States and 
many of our friends from around the world will come together to 
commemorate the 400th anniversary of the first permanent 
English settlement in America in 1607, the settlement of 
Jamestown in the Commonwealth of Virginia. More than just our 
nation's birthplace, Jamestown is a point of origin on this 
continent for many of the principles and the precepts that 
distinguished America, including our representative government, 
where the oldest legislative body in the new world first 
convened in Jamestown in 1619.
    Jamestown represented free enterprise. The Jamestown colony 
was a private venture, the first stock investment in America. 
Jamestown represented cultural diversity. It was the site where 
Europeans, Africans, and Virginia Indians first came together, 
foreshadowing America's unique character as a nation of diverse 
groups.
    The commemoration in 2007 will provide all Americans a 
great opportunity to recall what our nation is and how it 
began, reflect on our continuing opportunity and obligations to 
make the promise of freedom real for all Americans and for all 
people around the globe.
    As Congresswoman Davis said, I am a Virginian and I am 
testifying on behalf of the Department, but I also am pleased, 
as she said, to serve as one of the 16 members appointed by 
Secretary Norton to the Jamestown 400th Commemoration 
Commission. That Commission, Mr. Chairman, has slated some 13 
events that they are going to celebrate in the year 2007, and 
the proceeds from this coin will go a long ways to helping 
promote and pay for that great celebration. Every 50 years, we 
have had a celebration at Jamestown. We have had presidents; we 
have had the Queen of England; and in 2007 we hope that the 
next celebration will have as well distinguished visitors.
    So with the passage of this bill, we, the Department of 
Interior and the people of America can have a great celebration 
for 2007.
    Thank you for your time.
    [The prepared statement of Hon. J. Steven Griles can be 
found on page 19 in the appendix.]
    Chairman King. Thank you, Mr. Secretary.
    I am right now approaching this next assignment with great 
trepidation. I know that Congressman Murtha wanted to introduce 
the Commandant of the Marine Corps. For me to come between Jack 
Murtha and you, I will have to incur his wrath right or wrong, 
but apparently he is still testifying at the Appropriations 
Committee. Is that the latest we heard? Okay.
    General Mundy, I know how much Jack Murtha wanted to 
introduce you today. I know the tremendous regard he has for 
you. I know the tremendous regard he has for the Marines in 
which he served so well, as you did, and also as General 
Christmas did who is also with us here today, and I certainly 
want to acknowledge his presence and thank him for being here.
    General Mundy, you served this country well. You were the 
Commandant of the Marine Corps. That speaks for itself. I 
always feel that if you are introducing someone who was 
Commandant of the Marine Corps, everything else is superfluous 
and extraneous after that.
    So with that, let me just welcome you to the subcommittee, 
thank you for your appearance here today, and ask you to begin 
your testimony.

  STATEMENT OF GENERAL CARL E. MUNDY, JR., USMC RETIRED, 30TH 
                 COMMANDANT OF THE MARINE CORPS

    General Mundy. Thank you, Mr. Chairman. Rest assured, there 
is no offense at not being introduced. After a while, one gets 
tired of hearing your achievements recounted, but you did it 
very nicely and I appreciate that.
    It is a privilege to be before your committee this morning 
to testify about your support for a coin in commemoration of 
the 230th anniversary of the Marine Corps, which comes up next 
year. Had Congressman Murtha been here this morning, I would 
have wanted to express, and will for the record, deep 
appreciation to him for having introduced initially this 
legislation, as well as to the other Marine members of the 
House who together were able to acquire, as you know I believe, 
some 310 signatures in support of this particular bill. They 
were representatives Houghton, Evans, Gilchrest, Snyder and 
Kline.
    I appear before you today at the request of the Commandant 
of the Marine Corps, General Mike Hagee, who asked me to convey 
his respects and his regrets that he is unable to be here 
personally to convey to you and the members of the committee 
his wholehearted support for H.R. 3277. In his necessary 
absence, he asked me as a former Commandant to represent him, 
and that is a privilege which I am delighted to do.
    I appear also today as a representative of the Marine Corps 
Heritage Foundation, which is a 501(c)(3) nonprofit 
organization dedicated to the preservation and chronicling of 
Marine Corps history through scholarly research, education and 
outreach to the American public about the contributions of our 
Corps to our nation's history and to its freedom. I am 
privileged, you have already mentioned Lieutenant General Ron 
Christmas who is one of the true heroes of our Corps. He bears 
the second-highest decoration for bravery in combat for his 
heroism during the battle for Hue City in Vietnam in 1968. Ron 
is the president of the Marine Corps Heritage Foundation.
    On November 10, 2005, the Marine Corps will mark its 230th 
anniversary. The creation of the Corps of Marines in 1775 
actually predates the establishment of our republic. For well 
over two centuries, the story of the Corps has been one of 
contribution, sacrifice and service, as our hymn would put it, 
in every clime and place where we could take a gun on behalf of 
the nation.
    It is a story built around the immutable Corps values of 
honor, courage and commitment; a story of personal sacrifice 
and gallantry; of innovation and unconquerable fighting spirit 
in protecting the United States of America during times of war; 
and of quiet service at home and abroad in times of peace. It 
is a story worth telling, and it is a legacy worth preserving. 
It is a story best summarized perhaps by our Corps's motto, 
semper fidelis, or ``always faithful.''
    Along with the millions of men and women past and present 
who have worn the eagle golden anchor that marks us as Marines, 
I am enormously pleased that this committee is considering a 
way to recognize and pay tribute to the legacy of our nation's 
Corps of Marines by minting and issuing a commemorative silver 
dollar coin to mark the occasion of our 230th anniversary.
    As an adjunct benefit to the honor itself, in 2001 the 
Congress authorized the construction of a Marine Corps Heritage 
Center at Quantico, Virginia. This project, now under 
development, is a public-private partnership of the Marine 
Corps and the Marine Corps Heritage Foundation, the nonprofit 
organization of which I spoke earlier.
    The Heritage Center will be a multipurpose facility 
dedicated to historical displays for public viewing, 
curatorship, storage of artifacts, scholarly research, and 
educational outreach and associated activities. At its essence, 
the Center will be dedicated to preserving and chronicling the 
legacy of the United States Marine Corps. It will also tell the 
story of our great nation from its humble beginnings until 
today, through the eyes of the Marines who lived it.
    Construction costs for the Heritage Center are being 
underwritten solely from private sector sources. A 
congressional tribute to the 230th anniversary of the Corps by 
authorizing the issuance of this commemorative silver dollar 
coin would generate surcharge proceeds at no net cost to the 
taxpayers. Such proceeds would provide valuable monies toward 
the private sector effort to generate construction funding for 
the Heritage Center. The center will begin its construction in 
just a couple of months and is expected to open shortly after 
the corps's 230th anniversary during 2006.
    Mr. Chairman and members of your committee, again speaking 
for General Hagee and for the Heritage Foundation, I 
respectfully urge you to favorably report out this legislation 
to authorize the issuance of a commemorative silver dollar coin 
marking the 230th anniversary of the United States Marine 
Corps.
    Thank you, Mr. Chairman.
    [The prepared statement of Carl E. Mundy, Jr. can be found 
on page 23 in the appendix.]
    Chairman King. Thank you, General Mundy, for your testimony 
on behalf of H.R. 3277. Certainly if there has ever been a 
worthy bill, this is it, for years of gallantry and bravery by 
the United States Marine Corps.
    I want to thank you for your testimony. I want to thank 
General Christmas for being here as well, and thank him for his 
years of service to our country.
    With that, General you are excused. You are certainly 
welcome to stay. We are going to go to hopefully a very quick 
vote, and get these through. So I will now declare the 
committee in recess to allow the subcommittee to set up for the 
markup.
    Thank you, General.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]


                            A P P E N D I X



                             March 10, 2004

[GRAPHIC] [TIFF OMITTED] T3840.001

[GRAPHIC] [TIFF OMITTED] T3840.002

[GRAPHIC] [TIFF OMITTED] T3840.003

[GRAPHIC] [TIFF OMITTED] T3840.004

[GRAPHIC] [TIFF OMITTED] T3840.005

[GRAPHIC] [TIFF OMITTED] T3840.006

[GRAPHIC] [TIFF OMITTED] T3840.007

[GRAPHIC] [TIFF OMITTED] T3840.008

[GRAPHIC] [TIFF OMITTED] T3840.009

[GRAPHIC] [TIFF OMITTED] T3840.010

[GRAPHIC] [TIFF OMITTED] T3840.011

[GRAPHIC] [TIFF OMITTED] T3840.012

[GRAPHIC] [TIFF OMITTED] T3840.013

[GRAPHIC] [TIFF OMITTED] T3840.014

[GRAPHIC] [TIFF OMITTED] T3840.015

[GRAPHIC] [TIFF OMITTED] T3840.016

[GRAPHIC] [TIFF OMITTED] T3840.017

[GRAPHIC] [TIFF OMITTED] T3840.018

[GRAPHIC] [TIFF OMITTED] T3840.019

[GRAPHIC] [TIFF OMITTED] T3840.020

[GRAPHIC] [TIFF OMITTED] T3840.021


</pre></body></html>
